                            OFFICE OF THE INSPECTOR GENERAL
                            CORPORATION FOR NATIONAL AND
                                  COMMUNITY SERVICE




                            PRE-AUDIT SURVEY OF THE
                   SOUTH CAROLINA COMMISSION ON NATIONAL AND
                              COMMUNITY SERVICE

                                  OIG Audit Report Number 0 1-22
                                        October 20,2000




                                             Prepared by:

                                             KPMG LLP
                                        200 1 M Street N.W.
                                       Washington, DC 20036

                               Under CNS OIG MOU # 98-046-5003
                                  With the Department of Labor
                                  DOL Contract # 5-9-G-8-0022
                                       Task # B9GOV203




This report was issued to Corporation management on February 7, 2001. Under the laws and regulations
governing audit follow up, the Corporation must make final management decisions on the report's findings
and recommendations no later than August 6, 2001, and complete its corrective actions by February 7,
2002. Consequently, the reported findings do not necessarily represent the final resolution of the issues
presented.
                                  Office of Inspector General
                        Corporation for National and Community Service

                                  Pre-Audit Survey of the
                South Carolina Commission on National and Community Service
                               OIG Audit Report Number 01-22


Introduction

The Corporation for National and Community Service, pursuant to the authority of the National and
Community Service Act, awards grants and cooperative agreements to state commissions, nonprofit
entities, tribes and territories to assist in the creation of full and part time national and community
service programs. Currently, in accordance with the requirements of the Act, the Corporation awards
approximately two-thirds of its AmeriCorps StateINational funds to state commissions. The state
commissions in turn fund, and are responsible for the oversight of, subgrantees who execute the
programs. Through these subgrantees, AmeriCorps Members perform service to meet educational,
human, environmental, and public safety needs throughout the nation.

Thus, state commissions play an important role in the oversight of AmeriCorps programs and
expenditures. The Corporation has indicated that it intends to give them greater responsibility. However,
the Corporation lacks a management information system that maintains comprehensive information on
its grants including those to state commissions and subgrantees. Moreover, although the Corporation
began state commission administrative reviews in 1999, the Corporation, historically, has not carried
out a comprehensive, risk-based program for grantee financial and programmatic oversight and
monitoring. It is also unlikely that AmeriCorps programs are subject to compliance testing as part of
state-wide audits under the Single Audit Act due to their size relative to other state programs.

Therefore, CNS OIG has initiated a series of pre-audit surveys intended to provide basic information on
the state commissions' operations and funding. The surveys are designed to provide a preliminary
assessment of the commissions' pre-award and grant selection procedures, fiscal administration, and
monitoring of subgrantees (including AmeriCorps Member activities and service hour reporting). They
are a tool that allows OIG to plan future audit work related to the state commission's operations. For
each survey, we also issue a report to the state commission and to the Corporation communicating the
results and making recommendations for improvement, as appropriate.

We engaged KPMG LLP toperform thepre-audit survey of the South Carolina Commission on National
and Community Service. Based on the limited procedures performed, KPMG concluded that the
Commission administers an open, competitive process to select national service subgrantees. KPMG
also concluded that, in recent years, the commission has developed adequatefiscal administration and
monitoring procedures. However, KPMG 's report points out the need for improvement in both areas.

In addition to recommendationsfor improvement infiscaladministration, KPMGrecommendsfollow-up
by the Corporation to ensure that eflective corrective actions areput intoplace to address the conditions
reported herein. KPMG also recommends that OIG perform a full-scope audit of CNSfunding to the
Commissions for program years 1994-95 through 1997-98 and limited audit procedures for
program years thereafter.

CNS OIG reviewed the report and work papers supporting its conclusions. We agree with the findings
and recommendations presented therein.
The South Carolina Commission's response (Appendix C) describes its corrective actions. The
Commission's letter also included copies of new policies, procedures and forms, and additional
information on monitoring that is not included in this report. The Corporation's response (Appendix D)
argues against the recommendation for an internal audit of subgrantee matching requirements
characterizing such efforts as an "undue burden." Moreover, although the Commission as already begun
to do so and KPMG made no recommendation, CNS argues against documenting which Member time
sheets and expenses were reviewed during site visits charging that this report attempts to direct
"arbitrary, exacting standards for the Commission's monitoring of its programs".

KPMG reviewed the responses and revised certain portions of the information in the report based on
information provided by the Commission. However, as described on page 4 of their report, KPMG did
not significantly revise the findings and recommendations because they believe that the
recommendations, if implemented, will result in improvements to internal controls over Commission
operations. OIG concurs.
                                    Pre-Audit Survey of the
                  South Carolina Commission on National and Community Service
                                       Table of Contents



RESULTS IN BRIEF .....................................................................................................................1

BACKGROUND..............................................................................................................................
                                                                                                                                    2

OVERVIEW OF THE SOUTH CAROLINA COMMISSION ....................................................3

OBJECTIVES. SCOPE. AND METHODOLOGY .........................................................................3

FINDINGS AND RECOMMENDATIONS ...................................................................................
                                                                                                              5

APPENDIX A . COMMISSION FUNDING: 1994-95 THROUGH 1999-2000..........................A.1

APPENDIX B. DETAILED ENGAGEMENT OBJECTIVES AND
                                                                                                                           B .1
   METHODOLOGY ................................................................................................................

APPENDIX C. SOUTH CAROLINA COMMISSION ON NATIONAL AND
   COMMUNITY SERVICE RESPONSE..........................................................................C.1

APPENDIX D. CORPORATION RESPONSE ...........................................................................
                                                                                                          D.1
              2001 M Street, N.W
              Washington, D.C. 20036




October 20, 2000



Inspector General
Corporation for National and Community Service:

At your request, KPMG LLP (KPMG) performed a pre-audit survey of the South Carolina
Commission on National and Community Service (the Commission). The primary purpose of
this survey was to provide a preliminary assessment of:

   the adequacy of the pre-award selection process;
   the fiscal procedures at the Commission; and
   the effectiveness of monitoring of its AmeriCorps State subgrantees, including AmeriCorps
   Member activities and service hours and program accomplishment reporting.

We were also to report on the recommended scope of additional audit procedures to be
performed at the Commission.

Results in Brief

Based on the results of the limited procedures performed, we have made the following
preliminary assessments regarding the Comn~nission'ssystems for administering its AmeriCorps
grants:

    The Commission administers an open, competitive process to select national service
    subgrantees. However, we noted that communications with rejected applicants in program
    years prior to 2000-01 only contained a generic reason for rejection and did not specifically
    invite the applicants to contact the Commission for additional information.

    The Commission has developed adequate control policies and procedures to administer the
    Corporation's grant funds. However, prior to program year 1998-99, no documented
    evidence exists to support the review of subgrantee matching requirements and follow-up on
    matching deficiencies. In addition, the Commission should improve its policies and
    procedures related to the preparation of Financial Status Reports (FSRs).

    Prior to program year 1998-99, the Commission did not have sufficient procedures in place
    to evaluate and monitor subgrantees. However, since becoming part of the South Carolina
    Department of Education in late 1998, the Commission has implemented adequate
    subgrantee monitoring and evaluation procedures.




1111           aKPMG LLPotKPMG
                 member    KPMGLLPa  US llmlted
                                lnternat~onala Swiss   assoc8arion
                                                habilily parinershlp 1s
The section below entitled Findings and Recommendations describes the weaknesses noted
above in further detail and addresses additional issues noted during the survey.

Based on our preliminary assessments, we recommend the performance of a full scope audit at
the Commission for program years 1994-95 through 1997-98 and limited audit procedures to
address the issues identified herein at the Commission for program years 1998-99 and 1999-
2000.

Additionally, we recommend that the Corporation follow up with the Commission to determine
that appropriate corrective actions are put into place to address the conditions reported herein,
and that the Corporation consider these conditions in its oversight and monitoring of the
Commission.

Background

The National and Community Service Trust Act of 1993, P.L. 103-82, which amended the
National and Community Service Act of 1990, established the Corporation for National and
Community Service.

The Corporation, pursuant to the authority of the Act, awards grants and cooperative agreements
to State Commissions, nonprofit entities and tribes and territories to assist in the creation of full
and part time national and community service programs. Through these grantees, AmeriCorps
Members perform service to meet the educational, human, environmental, and public safety
needs throughout the nation, especially addressing those needs related to poverty. In return for
this service, eligible Members may receive a living allowance and post service educational
benefits.

Currently, the Corporation awards approximately two-thirds of its AmeriCorps State/National
funds to State Commissions. State Commissions are required to include 15 to 25 voting
Members. Each Commission has a responsibility to develop and communicate a vision and ethic
of service throughout its State.

The Commissions provide AmeriCorps funding to approved applicants for service programs
within their states and are responsible for monitoring these subgrantees' compliance with grant
requirements. The Commissions are also responsible for providing training and technical
assistance to AmeriCorps State and National Direct programs and to the broader network of
service programs in the state. The Commissions are prohibited from directly operating national
service programs.

The Corporation's regulations describe standards for financial management systems that must be
maintained by State Commissions. The standards require, in part, that the State Commissions
maintain internal controls that provide for accurate, current, and complete disclosure of the
financial and programmatic results of financially assisted activities, and provide effective control
and accountability for all grant and subgrant cash, real and personal property, and other assets.
Overview of the South Carolina Commission

The South Carolina Commission on National and Community Service, located in Columbia,
South Carolina, has received AmeriCorps grant funds from the Corporation for National and
Community Service since program year 1994-95. Since October 1998, the Commission has
operated as part of the State of South Carolina's Department of Education (SCDE). Prior to that
time, the Commission was a part of the South Carolina Governor's Office. The Commission
currently has eight employees - six full time, one part time, and one temporary - including an
Executive Director, Director of Policy/Evaluation, FiscalIGrant Manager, PDAT Manager, and
four program managers/coordinators. SCDE's Division of Finance and Operations provides
financial management services for the Commission.

As part of SCDE, the Commission is subject to the annual statewide Office of Management and
Budget (OMB) Circular A-133 audit. However, the Commission's AmeriCorps grants have not
been tested as major programs since it became part of this state agency. Prior to October 1998,
the Commission was subject to the annual OMB Circular A-133 audit of the South Carolina
Governor's Office. For the year ended June 30, 1998, the Commission's AmeriCorps grant was
tested as a major program. As a result of this testing, the auditors identified a reportable
condition in internal control related to the lack of monitoring of the Commission's subgrantees.

The Commission provided us with the following information for all program years:

                                                                          Number of
                                                                          Subgrantees
                             Total Corporation         Number of        Subject to A-133
         Program Year            Funding               Subgrantees          Audits*




"   Determination is based on information provided by the Commission.

Appendix A contains more detailed information on funding received from the Corporation during
program years 1994-95 through 1999-2000.

Objectives, Scope, and Methodology

We were engaged by the Office of the Inspector General, Corporation for National and
Community Service, to provide an assessment of the systems and procedures in place at the
Commission for administering its AmeriCorps grants and for ruonitoring the fiscal activity of
subgrantees. The primary purpose of this pre-audit survey was to provide a preliminary
assessment of:

    the adequacy of the pre-award selection process;
    the fiscal procedures at the Commission; and
    the effectiveness of monitoring of its AmeriCorps State subgrantees, including AmeriCorps
    Member activities and service hours and program accomplishment reporting.

We were also to report on the recommended scope of additional audit procedures to be
performed at the Commission.

Our survey included the following procedures:

   reviewing applicable laws, regulations, grant provisions, the Corporation's State
   Administrative Standards Tool, and other information to gain an understanding of legal,
   statutory and programmatic requirements;

   reviewing OMB Circular A-133 reports and current program year grant agreements for the
   Commission;

   obtaining information from Commission management to complete flowcharts documenting
   the hierarchy of AmeriCorps grant funding for program years 1994-95 through 1999-2000;
   and

   performing procedures to achieve the objectives detailed in Appendix B to assess the
   Commission's internal controls, selection of subgrantees, administration of grant funds, and
   monitoring of grants, including internal controls over service hour and program
   accomplishment reporting.

As part of the procedures performed, we documented and tested internal controls in place at the
Commission using inquiries, observations, and examination of a limited sample of source
documents. Finally, we summarized the results of our work to develop the findings and
recommendations presented in this report. We discussed all findings with Commission
management during an exit conference on November 1,2000.

Our procedures were performed in accordance with Government Auditing Stanclnrcls issued by
the Comptroller General of the United States. We were not engaged to, and did not, perform an
audit of any financial statements, and the procedures described above were not sufficient to
express an opinion on the controls at the Commission, or on its compliance with applicable laws,
regulations, contracts and grants. Accordingly, we do not express an opinion on any such
financial statements, or on the Commission's controls or compliance. Had we performed
additional procedures, other matters might have come to our attention that would have been
reported to you.

We provided a draft of this report to the Commission and the Corporation. The Commission's
and Corporation's responses to our findings and recommendations are included as Appendix C
and D respectively. We have incorporated the corrections in factual information referred to in
the Commission's separate response in this report. We also clarified the wording related to our
finding on subgrantee monitoring and evaluation prior to program year 1998-99. However, we
continue to believe our recommendations presented in the Findings and Recommendations
section of this report, if implemented, will result in improvements to internal controls over
Commission operations. Accordingly, no additional changes were made to that section of this
report.
MFg
Findings and Recommendations

Selecting Subgrantees

According to 45 CFR Section 2550.80(b)(l), "Each State must administer a competitive process
to select national service programs to be included in any application to the Corporation for
funding."

The Commission administers an open, competitive process to select national service subgrantees.
As part of this process, the Commission advertises funding availability through newspapers,
newsletters and flyers mailed to the education and non-profit organizations in the state. Peer
reviewers sign conflict of interest statements annually, receive training on the selection process
and conflicts of interest, and use a standard rating sheet to evaluate each applicant. In addition, a
Commission task force performs a pre-award risk assessment for new not-for-profit applicants to
assess financial management capabilities. However, we identified the following area for
improvement within the selection process.

        Communications with Rejected Applicants

In a sample of five rejected applicants, the Commission could not provide documentation
indicating whether the reasons for the rejection of one grant application for program year 1994-
95 were communicated to the applicant. This documentation may have been misfiled or lost in
the process of transferring the Commission's activities from the South Carolina Governor's
Office to SCDE.

Additionally, in years prior to program year 2000-01, the Commission's notification to rejected
applicants only contained a generic reason for rejection and did not specifically invite the
applicants to contact the Commission for additional information. The Commission did not
include specific reasons for funding denial in its notifications to rejected applicants based on
advice from legal counsel. As a result, the rejected grant applicants were not provided sufficient
information that would enable them to improve their applications and become more competitive.

The exception noted in program year 1994-95 appears to be an isolated incident, and the
Commission's current notification letter to rejected applicants invites them to contact the
Commission for additional information. Therefore, no recommendation is required related to
communications with rejected applicants.

Administering Grant Funds

As part of the grant administration process, "Grantees are responsible for managing the day-to-
day operations of grant and subgrant supported activities. Grantees must monitor grant and
subgrant supported activities to assure compliance with applicable Federal requirements and that
performance goals are being achieved. Grantee monitoring must cover each program, function
or activity" (45 CFR Section 2541.4OO(a)).

The Commission has developed and implemented procedures that are intended to provide
reasonable assurance that grant funds received from the Corporation are properly administered.
Procedures are currently in place to withhold funding payments if subgrantees do not submit
FSRs timely; to manage cash draw downs and disbursements to subgrantees; and to ascertain
whether subgrantees have met their matching requirements. The Commission's personnel have
adequate skills and experience to manage and administer Corporation grant funds. However, we
identified the following areas for improvement related to the Commission's reporting
requirements and the evaluation of subgrantee compliance with reporting and grant
requirements.

       Lack of Review of Subgrantee Matching Requirements and Follow-up on Noted
       Deficiencies

The Commission requested that SCDE's Office of Internal Auditing perform an audit of
matching requirements for program year 1998-99. During that same program year, the
Commission began reviewing matching information during site visits. However, prior to that
time, no documented evidence exists to support the review of subgrantee matching requirements
and follow-up on matching deficiencies. In addition, the Commission has not formalized
procedures over what actions to take if subgrantees do not meet their match.

As a result, instances of material noncompliance related to the AmeriCorps program of which the
Commission is not aware may exist and may not be corrected. In addition, without the benefit of
formal procedures regarding what actions to take if subgrantees do not meet their match,
subgrantees could be treated differently or personnel new to the Commission may not know what
actions to take when deficiencies are identified.

       Preparation and Review of FSRs

During our review of Commission and subgrantee FSRs, we noted the following:

    Administrative grant FSRs and consolidated FSRs for the AmeriCorps formula grant
    incorrectly reported the recipient share of outlays as total outlays and did not report the
    federal share of outlays.
    On the consolidated FSRs for the AmeriCorps formula grants, column I (previously reported
    amounts) did not always agree to cumulative totals in column I11 on prior consolidated FSRs.
    It appears that PDAT and Administrative expenditures were reported on the same FSRs
    during program years 1994-95 through 1997-98.
    Although Commission procedures require the review of subgrantee FSRs upon receipt, this
    review is not documented.

As a result, incomplete and/or incorrect financial information was provided to the Corporation,
and compliance with required match amounts cannot be determined by reviewing the
Commission's FSRs. Additionally, we could not determine if subgrantee FSRs were adequately
reviewed by the Commission as part of its monitoring procedures.

No recommendation is required related to the separate reporting of PDAT and Administrative
grant expenditures because the Commission has developed and implemented procedures to
address this issue.

        Timeliness of Subgrantee FSR and Progress Report Submissions

During our review of subgrantee FSRs and progress reports, we noted that the Commission did
not date stamp FSRs and progress reports upon receipt prior to the implementation of the Web
Based Reporting System (WBRS). Additionally, based on the date the subgrantee's
representative signed the reports, we noted that four of eight subgrantees tested submitted FSRs
and progress reports late, and we did not find evidence supporting follow-up on these untimely
submissions.

By not date stamping or tracking the receipt of subgrantee reports in some other manner, the
Commission could not routinely verify if these documents were submitted timely in compliance
with the grant agreement. As a result, subgrantee FSRs and progress reports may have been
submitted late without appropriate follow-up action.

The AmeriCorps Provision Section 16, Reporting Requirements, states "Each grantee must set its
own subgrantee reporting requirements consistent with its need for timely and accurate reports."
In addition, OMB Circular A-133 Compliance Supplement, March 2000, Part 6 - Internal
Control suggests that establishing a tracking system to ensure timely submission of required
reporting is a key component of a program to monitor subgrantees' compliance with federal
grant requirements.

In conjunction with the implementation of WBRS during program year 1999-2000, the
Commission has developed improved procedures to track the timely submission of FSRs and
progress reports and to follow-up on untimely report submissions. Therefore, no
recommendation is required related to the timeliness of subgrantee report subn~issions.

        Recommendations.

We recommend the Commission focus on measures for improving the effectiveness of its grant
administration process as follows:

    Develop and implement procedures to (a) correctly complete all required areas of the FSR,
    including "total outlays," "recipient share of outlays," and "federal share of outlays;" (b)
    agree the amount in column I of each consolidated FSR to column I11 of the previous
    consolidated FSR and document and maintain a reconciliation if adjustments are necessary;
    and (c) document the review of subgrantee FSRs using an FSR review worksheet.
    Formalize procedures over what actions to take if subgrantees do not meet their required
    match.
    Formally incorporate an annual internal audit of matching requirements into its procedures.

Evaluating and Monitoring Subgrantees

As noted above, the Commission is responsible for monitoring subgrant supported activities to
assure compliance with applicable Federal requirements and that performance goals are being
achieved. Beginning in October 1998, the Commission has established controls to evaluate and
monitor subgrantees, which include reviewing program and financial reports and scheduling at
least two site visits for each subgrantee during the grant period. Each site visit team is composed
of certain Commissioners, Commission staff, a peer program director and a financial auditor.
The team uses a standard site visit report form to document results of each visit, and the
Commission notifies the subgrantees of the results of these site visits, including strengths,
weaknesses, concerns, recommendations, and any necessary follow-up requirements. In
addition, the Commission evaluates the validity of program accomplishments reported by the
subgrantees in their progress reports based on daily communications, information obtained
during site visits, and approved grant objectives.

The Single Audit Program Section of SCDE's Division of Finance and Operations obtains and
reviews subgrantee OMB Circular A-133 audit reports. The Commission is notified of the
results of each review related to its subgrantees. The Single Audit Program Section and the
Commission monitor identified findings until corrective action has been completed.

However, we identified the following areas for improvement related to the evaluation and
monitoring of subgrantees.

       Lack of Sufficient Subgrantee Monitoring and Evaluation Prior to Program Year 1998-
       99

The Commission could not provide adequate documentation to support the extent of its
monitoring and evaluation activities for program years 1994-95 through 1997-98, although
limited evidence exists to support the performance of some site visits during that timeframe. The
insufficiency of the Commission's monitoring and evaluation procedures during that time was
identified in the fiscal year 1998 OMB Circular A-133 audit of the South Carolina Governor's
Office and during various Corporation site visits.

As a result of insufficient monitoring and evaluation of subgrantees, instances of material
noncompliance related to the AmeriCorps program of which the Commission was not aware may
have existed and may not have been corrected.

In addition to the guidance provided in 45 CFR Section 2541.400(a), OMB Circular A- 133
Compliance Supplement, March 2000, Part 6 - Internal Control suggests that performing site
visits to subgrantees to review financial and programmatic records and observe operations is a
key component of a program to monitor subgrantees' compliance with federal grant
requirements.

Since becoming part of SCDE in late 1998, the Commission has implemented subgrantee
monitoring and evaluation procedures that require site visits, review of audit reports, and
consistent documentation of the monitoring and evaluation results. Therefore, no
recommendation is required related to subgrantee monitoring and evaluation.

        Documentation of Subgrantees ' AmeriCorps Member Timesheets and Expense Items
        Examined during Site Visits

Beginning with site visits performed in program year 1998-99, the Commission reviews Member
timesheets and expense (federal and match) documentation for proper support and approval.
However, prior to July 2000, the Commission did not document which Member timesheets and
expense (federal and match) documents were reviewed during site visits. In addition, the
Commission did not document the sample size selected and the rationale behind the selection.
As a result, a reviewer of the Program Review Instrument and other site visit supporting
documentation is not able to assess if the sample size selected was adequate and review the same
documentation if a question arose about the results of the test.
qmn
The Commission implemented procedures to address this issue in July 2000. Therefore, no
recommendation is required related to the documentation of items examined during site visits.

        Other Observation - Annual Accomplishment Review Form

The Commission's current process to obtain reports on program results and to verify the
accuracy of the reported program accomplishments appears adequate. However, prior to
program year 1999-2000, the Commission did not adequately review and verify the information
provided by subgrantees to the Corporation in their Annual Accomplishment Review forms
because the Corporation did not instruct the Commission to verify this information. As a result,
the information used by the Corporation to report its program accomplishments in accordance
with the Government Performance Results Act (GPRA) may not be accurate.

Submission of the Annual Accomplishment Review form is no longer required for Commissions
and subgrantees that use the new Automated Progress Report (APR) system in WBRS. When
using the APR, the necessary information is extracted from the subgrantees' semi-annual
progress reports, the accuracy of which the Commission adequately verifies. Therefore, no
recommendation for the Commission is required related to the Annual Accomplishment Review
form.



This report is intended solely for the information and use of the Office of the Inspector General,
the management of the Corporation for National and Community Service, the management of the
South Carolina Commission on National and Community Service, and the United States
Congress and is not intended to be and should not be used by anyone other than these specified
parties.
                                   Commission Funding                           Appendix A

The table below and the flowcharts on the following pages depict the Commission's funding over
the past six program years.

Funding Source
and Type

CNS Formula
 Grant Funds

CNS Competitive
 Grant Funds

CNS PDAT Funds

CNS Administrative
 Funds


Disability


Carryover

State Matching
 Funds
                                              Commission Funding                                   Appendix A




                                            Corporation for National Service

         Funding to the South Carolina Commission on National and Community Service
                                          1994-95




         Americorps                         Americorps               PDAT                         Administration
          Formula                           Competitive              Funds                           Funds
           Funds                              Funds                                                 $181,758
          $570,489                           $236,539
                                                                    $29,482
            Match                             Match                                                   Match
         (see Note 1)                          $0                                                    $38,503




                                           -r
                                            +                         +                               Ir
                            Total CNS Funds Retained by the Commission $2 11,240

                                        Total Commission Matching Funds $38,503


         I                     Total CNS Funds Awarded to Sub-grantees $807,028



                         Americorps                                             Americorps
                           Formula:                                             Competitive:
                          $540,549                                                   $0
                         (see Note 2)                                           (see Note 2)

                            Match                                                  Match
                         (see Note 1)                                               S0
                        Total # of SUBS                                        rota1 # of SUBS
                                3                                                      0

                        Total # of Sites                                       Total # of Sites
                              50                                                      0
Note 1: The Commission was unable to provide matching information for its subgrantees. See related finding under
Administering Grant Funds.
Note 2: Two approved applicants withdrew their requests for funding prior to grant disbursement. Therefore, amounts
awarded by CNS exceeded the amounts passed through to subgrantees. Both unused amounts were considered in CNS'
funding process for the Commission's 1995-96 AmeriCorps Formula grant application.
                                          Commission Funding                               Appendix A




                                        Corporation for National Service

              Funding to the South Carolina Commission on National and Community Service
                                               1995-96
          L




      -       Americorps                              PDAT                                Administration
               Formula                                Funds                                  Funds
                Funds                                                                       $287,208
              $1,014,188
                                                     $86,923
                 Match                                                                        Match
              (see Note I )                                                                  $45,160




                   +                                    +                                      v
                              Total CNS Funds Retained by the Commission $374,131

                                   Total Commission Matching Funds $45,160

                              Total CNS Funds Awarded to Sub-grantees $1,014,188




                                                     Formula:
                                                    $1,014,188

                                                       Match
                                                    (see Note 1)

                                                 I Total # of SUBS
                                                         4

                                                  Total # of Sites
                                                        67

Note 1: The Commission was unable to provide matching information for its subgrantees. See related finding under
Administering Grant Funds.
Note 2: CNS approved $82,5 13 of carryover from 1994-95 for use in 1995-96 for the AmeriCorps Formula grant.
This amount is not reflected above.
                                       Commission Funding                                  Appendix A




                                    Corporation for National Service

         Funding to the South Carolina Commission on National and Community Service
                                          1996-97




         Ameri corps                                 PDAT                                 Administration
          Formula                                    Funds                                   Funds
           Funds                                                                            $76,204
          $933,456
                                                    $7 1,447
            Match                                                                             Match
         (see Note 1)                                                                        $45,463




         I
                                                       v                                       v
                        Total CNS Funds Retained by the Commission $147,651

                               Total Commission Matching Funds $45,463

                          Total CNS Funds Awarded to Sub-grantees $933,456




                                                   Formula:
                                                   $933,456

                                                     Match
                                                  (see Note 1)

                                                Total # of SUBS
                                                        4

                                                 Total # of Sites
                                                       60

Note 1: The Commission was unable to provide matching information for its subgrantees. See related finding under
Administering Grant Funds.
Note 2: CNS approved $1 16,000, $40,000, and $51,147 of carryover from 1995-96 for use in 1996-97 for the
AmeriCorps Formula, Administration, and PDAT grants, respectively. These amounts are not reflected above.
                                       Commission Funding                                Appendix A




                                    Corporation for National Service

         Funding to the South Carolina Commission on National and Community Service
                                          1997-98




       I
         Americorps                                                                     Administration
          Formula                                   Funds                                  Funds
           Funds                                                                          $91,885
          $696,441                                                                         Match
                                                   $59,427                                $47,794
            Match
         (see Notc 1)                                                                     Other CNS
                                                                                            Funds




                        Total CNS Funds Retained by the Commission $170,524

                              Total Commission Matching Funds $47,794

                         Total CNS Funds Awarded to Sub-grantees $696,441




                                                   Formula:
                                                   $696,441

                                                     Match
                                                  (see Note 1)

                                                Total # of SUBS
                                                        2

                                                Total # of Sites
                                                      30

Note 1: The Commission was unable to provide matching information for its subgrantees. See related finding under
Administering Grant Funds.
Note 2: CNS approved $10,000 and $80,573 of carryover from 1996-97 for use in 1997-98 for the Administration and
PDAT grants, respectively. These amounts are not reflected above.
                                                     AS
                                       Commission Funding                                  Appendix A




                                     Corporation for National Service

         Funding to the South Carolina Commission on National and Community Service
                                          1998-99




         Americorps
          Formu la
           Funds
         $1,188,657

            Match
         (see Note I )
                                                     Funds


                                                    $1 13,000                          r- Administration
                                                                                             Funds

                                                                                             Match
                                                                                            $200,252

                                                                                           Other CNS
                                                                                             Funds




              v                                        v
                         Total CNS Funds Retained by the Commission $123,440

                              Total Commission Matching Funds $200,252

                         Total CNS Funds Awarded to Sub-grantees $1,188,657




                                                    Formula:
                                                   $1,188,657

                                                      Match
                                                   (see Note 1)

                                                 Total # of SUBS




Note 1: The Commission was unable to provide matching information for its subgrantees. See related finding under
Administering Grant Funds.
Note 2: CNS approved $216,000 of carryover from previous years for use in 1998-99 for the Administration grant.
This amount is not reflected above.
                                                       A.6
                                        Commission Funding                                 Appendix A



                                      Corporation for National Service

           Funding to the South Carolina Commission on National and Community Service
                                            1999-2000




          Americorps                                  PDAT                                Administration
           Formula                                    Funds                                  Funds
            Funds                                                                           $217,091
          $1,013,212                                                                         Match
                                                     $22,325                                $200,433
             Match
          (see Note I)                                                                     Other CNS
                                                                                             Funds
                                                                                            $40.342




              v                                         v                                     v
                         Total CNS Funds Retained by the Commission $279,758

                               Total Commission Matching Funds $200,433

                          Total CNS Funds Awarded to Sub-grantees $1,013,212




                                                     Formula:
                                                   $ 1,013,212

                                                      Match
                                                     $219,261
                                                   (see Note 1)

                                                 Total # of SUBS
                                                         9

                                                  Total # of Sites
                                                        47

Note 1: Matching total is as of March 31,2000.
Note 2: CNS approved $237,675, $73,675, and $443 of carryover from 1998-99 for use in 1999-2000 for the
AmeriCorps Formula, PDAT and Disability grants, respectively. These amounts are not reflected above.
                          Detailed Engagement Objectives
                                 and Methodology                                  Appendix B

Internal Controls


Our objective was to make a preliminary assessment of the adequacy of the Commission's
financial systems and documentation maintained by the Commission to provide reasonable
assurance that transactions are properly recorded and accounted for to: (1) permit the preparation
of reliable financial statements and Federal reports; (2) maintain accountability over assets; and
(3) demonstrate compliance with laws, regulations, and other compliance requirements.

In order to achieve the above objective, we identified the compliance requirements with a direct
and material effect on the Commission's AmeriCorps grant program, as follows: activities
allowed or unallowed and allowable costs; eligibility; matching; period of availability of
Corporation funds; suspension and debarment; subrecipient monitoring; and reporting by the
Commission to the Corporation. We then interviewed key Commission personnel to assess the
Commission's controls surrounding these requirements.

Selecting Subgrantees

Our objectives were to make a preliminary assessment:

    of the adequacy of the systems and controls utilized by the Commission to select national
    service subgrantees to be included in an application to the Corporation;

    as to whether the Commission evaluated the adequacy of potential subgrantee financial
    systems and controls in place to administer a Federal grant program prior to making the
    award to the subgrantees; and

    as to whether Commission involvement in the application process involved any actual or
    apparent conflict of interest.

In order to achieve the above objectives, we interviewed key Commission management and
documented procedures performed by the Commission during the pre-award financial and
programmatic risk assessment of potential subgrantees. We also reviewed documentation to
determine if conflict of interest forms for each subgrantee applicant tested were signed by
selection officials annually and maintained by the Commission.

Administering Grant Funds

Our objectives were to:

    make a preliminary assessment of the adequacy of the systems and controls utilized by the
    Commission to oversee and monitor the performance and progress of funded subgrantees;

    make a preliminary assessment as to whether the Commission's organizational structure and
    staffing level and skill mix are conducive to effective grant administration;
                          Detailed Engagement Objectives
                                 and Methodology                                 Appendix B

   make a preliminary assessment as to whether the Commission provided adequate guidance to
   subgrantees related to maintenance of financial systems, records, supporting documentation,
   and reporting of subgrantee activity;

   make a preliminary assessment of the adequacy of financial systems and documentation
   maintained by the Commission to support oversight of subgrantees and required reporting to
   the Corporation (including Financial Status Reports, progress reports, enrollment and exit
   forms, and change of status forms); and

    determine whether the Commission has procedures in place to verify the accuracy and
    timeliness of reports submitted by the subgrantees.

In order to achieve the above objectives, we reviewed Financial Status Reports and progress
reports submitted by subgrantees, as well as Financial Status Reports submitted by the
Commission to the Corporation, to preliminarily assess the accuracy of submitted Financial
Status Reports and progress reports. We also preliminarily assessed whether the Commission's
implementation of the Web Based Reporting System (WBRS) had enhanced the grant
administration process.

Evaluating and Monitoring Subgrantees

Our objectives were to:

    make a preliminary assessment of the adequacy of the systems and controls utilized by the
    Commission, in conjunction with the Corporation, to implement a comprehensive, non-
    duplicative evaluation and monitoring process for their subgrantees;

    determine whether the Commission has an established subgrantee site visit program in place
    and make a preliminary assessment of the effectiveness of its design in achieving monitoring
    objectives;

    make a preliminary assessment of the adequacy of the Commission's procedures used to
    assess subgrantee compliance with Corporation regulations (e.g., those governing eligibility
    of Members, service hour reporting, prohibited activities, payment of living allowances to
    Members and allowability of costs incurred and claimed under the grants by subgrantees
    (including reported match));

    make a preliminary assessment of the adequacy of the Commission's procedures for
    obtaining, reviewing and following up on findings included in the subgrantee OMB Circular
    A-133 audit reports, where applicable;

    determine whether program goals are established and results are reported and compared to
    these goals;

    make a preliminary assessment of internal controls over service hour and program
    accomplishment reporting; and
                         Detailed Engagement Objectives
                                and Methodology                               Appendix B

   make a preliminary assessment of the adequacy of the procedures in place to evaluate
   whether subgrantees are achieving their intended purpose.

In order to achieve the above objectives, we documented the procedures performed by the
Commission to evaluate and monitor individual subgrantees. In addition, we judgmentally
selected subgrantees and obtained the Commission's documentation for site visits. We reviewed
the documentation to preliminarily assess the adequacy of the procedures performed by the
Commission to assess financial and programmatic compliance and related controls at the sites.
We also determined whether the Commission received and reviewed OMB Circular A-133 audit
reports from subgrantees.
                                             January 19, 2001

    Ms. Cathy Presnell
    Assistant Inspector General for Audits
    Office of Inspector General
    1201 New York Avenue, N.W.
    Washington, D.C. 20525

    Dear Ms. Presnell:

            The Department of Education received the draft report of your pre-audit survey
    for the South Carolina Commission on National and Community Service on December
    27, 2000. Our response is included in this mailing along with a separate letter to
    clarify information in the finding regarding the Timeliness of Subgrantee FSR and
    Progress Report Submissions.

           Our agency has put many procedures and policies in place to ensure that all
    federal programs are in compliance. The Commission on National and Community
    Service has the support of the entire Department of Education. If you need any
    additional information for the final report, please feel free to contact Kathy Carter,
    Executive Director, at 803-253-7634.

                                                Very truly yours,



                                                Inez M. Tenenbaum
                                                State Superintendent of Education

    IMTIgh
    Enclosures




1429 SENATESTREET COLUMBIA.
                       SOUTHCAROLINA
                                 29201            1 8 0 3 )734-8492   F A X (803) 734-3389   w w w \Ule \c u d d c



                                        C'. 1
       South Carolina Commission on National and Community Service
              Response to Inspector General Pre-Audit Survey

                                  January 19,2001

                                     Introduction
      At the request of the Corporation for National Service in Washington, D.C., the
South Carolina Commission on National and Community Service was transferred from the
Governor's Office to the South Carolina Department of Education on September 30, 1998.
Executive Order Number 98-30 states the following:

      South Carolina has supported an impressive network of service
      organizations and individuals involved in service through our Learn and
      Serve programs, our national service programs, our school volunteer
      programs in every school district, our State Board of Education Volunteer
      Awards program and our emphasis on Service Learning linkages with
      colleges and universities, United Way organizations, intergenerational
      programs, alternative programs, character education, school-to-work, and
      curriculum standards; and

      The South Carolina Department of Education shall provide in-kind office
      space and other appropriate assistance to the commission within existing
      resources.

       Under the leadership of the Department of Education, the Commission reorganized
with an emphasis on ensuring both program quality and compliance with all federal and
state mandates. To maximize federal dollars, programs have formed linkages w ~ t hother
programs administered by the Department of Education. Additionally, all policies and
procedures were reviewed and formalized by the Commission's Board. During this time the
Commission has received considerable support from the State Superintendent of
Education, senior staff, and the Offices of Finance, District and Field Auditing, and Internal
Auditing. A comprehensive manual of policies and procedures has been developed for
every function administered by the Commission.

                                        Results in Brief

       The South Carolina Commission on National and Community Service appreciates
the recognition from the Office of Inspector General that the Commission (1) has developed
adequate control policies and procedures to administer Corporation's grant funds and (2)
has implemented adequate subgrantee monitoring and evaluation procedures. These
areas also receive priority for Commission resources.
                          Findings and Recommendations

      Below is a list of all findings cited by the OIG with Commission responses.

Finding: Communication with Rejected Applicants
Response: Agree. Rejected applicants are afforded an opportunity to meet with the
Executive Director to discuss strengths and weaknesses for further submissions.

Finding: Lack of Review of Subgrantee Matching Requirements and Follow-up on
Noted Deficiencies
Response: Agree. The Commission formalized policy regarding subgrantee match
during the November 15, 2000, Commission meeting. The Department of Education will
incorporate an annual internal audit of matching requirements for the Commission.
(See appendix A.)

Finding: Preparation and Review of FSRs
Response: Agree. The Commission recognizes that problems existed with FSRs for
prior grant periods. Personnel who completed prior FSRs had limited experience with
completing these documents and did not always follow the instructions that are part of
the document itself. Changes in staffing in the Office of Finance occurred in October
2000, and we do not anticipate similar problems with future FSRs. The Grants Manager
who will be completing these documents in the future has extensive experience both in
grants management and FSR completion. Written procedures are in place for the
completion of FSRS for the Commission and will be followed. Additionally, an FSR
worksheet was developed to use with subgrantees. (See appendices B and C.)

Finding: Timesheets of Subgrantee FSR and Progress Report Submission
Response: See correction under separate cover.

Finding: Lack of Sufficient Subgrantee Monitoring and Evaluation Prior to Program
Year 7998-99
Response: According to the fiscal year 1998 A-133 Audit of the South Carolina
Governor's Office, insufficiencies were identified in the Commission monitoring and
evaluation procedures. The audit finding was not addressed due to the transfer of the
Commission to the South Carolina Department of Education and the transfer of power In
the Governor's administration. The audit finding was not shared with the new fiscal
agent, the Department of Education, until 1999. Subsequent research conducted by
Commission staff has since identified clear evidence of monitoring and evaluation of
Commission subgrantees prior to 1998. Evidence in the form of official meeting
minutes, state administrative plans, correspondences, site visit reports and schedules,
and program responses to site visits have been documented and filed in the office of the
Director of Policy and Evaluation. In summary, evidence of monitoring, by year, should
be included in the response to the finding. (See appendix D.)

Finding: Documentation of Subgrantee' Amencorps Member Timesheets and Expense
Items Examined during Site Visits.
Response: Agree. Commission does have a system in place to review time sheets and
expenses.
                                                                    ArneriCorpj National Service   C 0 R P 0 RAT I 0 Y

                                                                                                   FOR N A T I O N A L


MEMORANDUM


To:            Luise Jordan, Inspector General
Through:       William Anderson, Deputy Chief
From:          Peter Heinaru, Director, AmeriCorps Statemation
Subject:       Comments on the OIG Draft Report 01-22, Pre-Audit Survey of the South
               Carolina Commission on National and Community Service
Date:          January 22,2001


We have reviewed the draft report of the pre-audit survey of the South Carolina Commission on
National and Community Service and are pleased to note that the Commission:

            administers an open, competitive process to select national service subgrantees:
            has developed adequate control policies and procedures to administer the
            Corporation's grant funds; and
            currently has in place sufficient procedures for evaluating and monitoring
            subgrantees.


The report contains several findings and three recommendations which we address brietly.

In the area of administer in^ G r a n t Funds, we concur with the recommendations to implement
procedures to ensure review and accuracy of all areas of the Financial Status Reports (FSRs) and
to address actions to be taken if required matches are not met. We are aware that the
Commission has new procedures, and we will follow up with the Commission to ensure that the
procedures are appropriate and are being implemented.

However, the'third recommendation, that the Commission conduct an internal audit of
subgrantee matching requirements each year, places an unnecessary burden on the grantee.
Inasmuch as the Commission is carefully reviewing FSRs during each reporting period to ensure,
among other things, appropriate match has been provided. and given that the Commission is.
when necessary, reviewing match documentation on site during monitoring visits, the internal
                                                                                          1201 Vew York -\v*nuc             vw
audit requirement is redundant. The procedures employed by the Commission to ensure Washln@on. DC 0 5 2 5
                                                                                                    Telephone   ?O?W&juOO
,Ms. Luise Jordan                             Page 2                               Januar> 11.200 1


subgrantees meet their match should primarily rely on OMB A-133 audits with additional risk-
based procedures to be used in appropriate circumstances.

In the area of Evaiuatin~and monitor in^ of Sub~rantees,the report notes that "...prior to July
2000, the Commission did not document which Member timesheets and expense (federal and                '




match) documents were reviewed during site visits. In addition, the Commission did not
document the sample size selected and the rationale behind the selection."

Although no recommendation is made related to this finding, the Corporation is concerned that
the statement attempts to direct the establishment of arbitrary, exacting standards for the
Commission's monitoring of its programs. The report suggests that program managers use audit
techniques including sampling and the performance of specific programmatic and fiscal reviews
for every award, concepts not normally associated with or required by Federal management
standards as articulated in OMB Circulars A- 102, A- 1 10, and A- 133.

The Corporation advocates a risk-based strategy for monitoring programs that considers the
experience, organizational history and past performance, including programmatic and financial
elements. The Corporation, like other Federal agencies, requires its grantees and subgrantees to
use the OMB A-1 33 audit as the primary basis for oversight of its awards. These audits cover
the entire operations of the subgrantee including internal controls and compliance with laws,
regulations and award provisions. For organizations not required to have an A- 133 audit, the
Commission must consider what, if any, additional procedures are needed to ensure adequate
oversight. OMB Circular A- 1 10, addressing Administrative Standards and adopted by the
Corporation in regulation, also addresses high-risk grantees and consideration for additional
monitoring by the Commission.

The Corporation will work with the South Carolina Commission to ensure that its monitoring
strategy for subgrantees is risk-based and adequate.
Ms. L u ~ s eJordan                           Page 2                               Januar) 22.    200 i


subgrantees meet their match should primarily rely on OMB A-133 audits with additional risk-
based procedures to be used in appropriate circumstances.

In the area of Evaluatin~and Monitoring of Subgrantees, the report notes that "...prior to July
2000, the Commission did not document which Member timesheets and expense (federal and
match) documents were reviewed during site visits. In addition, the Commission did not
document the sample size selected and the rationale behind the selection."

Although no recommendation is made related to this finding, the Corporation is concerned that
the statement attempts to direct the establishment of arbitrary, exacting standards for the
Commission's monitoring of its programs. The report suggests that program managers use audit
techniques including sampling and the performance of specific programmatic and fiscal reviews
for every award, concepts not normally associated with or required by Federal management
standards as articulated in OMB Circulars A-102, A-110, and A-133.

The Corporation advocates a risk-based strategy for monitoring programs that considers the
experience, organizational history and past performance, including programmatic and financial
elements. The Corporation, like other Federal agencies, requires its grantees and subgrantees to
use the OMB A- 133 audit as the primary basis for oversight of its awards. These audits cover
the entire operations of the subgrantee including internal controls and compliance with laws,
regulations and award provisions. For organizations not required to have an A- 133 audit, the
Commission must consider what, if any, additional procedures are needed to ensure adequate
oversight. OMB Circular A-110, addressing Administrative Standards and adopted by the
Corporation in regulation, also addresses high-risk grantees and consideration for additional
monitoring by the Commission.

The Corporation will work with the South Carolina Commission to ensure that its monitoring
strategy for subgrantees is risk-based and adequate.




                                                                                 OfFlCE Of THE
                                                                              RISPECTOR GENERAL
.Ms. Luke Jordan                                  Page 2                                   Januar? 22. 200 1


subgrantees meet their match should primarily rely on OMB A-1 33 audits with additional risk-
based procedures to be used in appropriate circumstances.

In the area of Evaluatine and monitor in^ of S u b ~ r a n t e e sthe
                                                                   , report notes that ". . .prior to July
2000, the Commission did not document which Member timesheets and expense (federal and
match) documents were reviewed during site visits. In addition, the Commission did not
document the sample size selected and the rationale behind the selection."

Although no recommendation is made related to this finding, the Corporation is concerned that
the statement attempts to direct the establishment of arbitrary, exacting standards for the
Commission's monitoring of its programs. The report suggests that program managers use audit
techniques including sampling and the performance of specific programmatic and fiscal reviews
for every award, concepts not normally associated with or required by Federal management
standards as articulated in OMB Circulars A-1 02, A- 1 10, and A- 133.

The Corporation advocates a risk-based strategy for monitoring programs that considers the
experience, organizational history and past performance, including programmatic and financial
elements. The Corporation, like other Federal agencies, requires its grantees and subgrantees to
use the OMB A-133 audit as the primary basis for oversight of its awards. These audits cover
the entire operations of the subgrantee including internal controls and compliance with laws,
regulations and award provisions. For organizations not required to have an A- 133 audit, the
Commission must consider what, if any, additional procedures are needed to ensure adequate
oversight. OMB Circular A-1 10, addressing Administrative Standards and adopted by the
Corporation in regulation, also addresses high-risk grantees and consideration for additional
monitoring by the Commission.

The Corporation will work with the South Carolina Commission to ensure that its monitoring
strategy for subgrantees is risk-based and adequate.
